U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 29, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Enzo Life Sciences, Inc. v. Becton, Dickinson and Co., No. 19-1097
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 3, 2020.
The government’s response is now due, after one extension, on May 6, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 8, 2020, within which to file a response.
This short extension is necessary because, in light of COVID-19, this Office is
endeavoring to minimize risks to the health and safety of our personnel responsible for the filing
and service of paper copies of Court documents by reducing the number of days each week on
which the filing and service of such documents are necessary and on which those personnel must
report to work in person.
Counsel for petitioner and for the private respondent do not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-1097
ENZO LIFE SCIENCES, INC.
BECTON, DICKINSON & COMPANY

JUSTINE P.D. WILCOX
DESMARAIS LLP
230 PARK AVENUE
NEW YORK, NY 10169
212-351-3400
JWILCOX@DESMARAISLLP.COM

